           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



           PHASE 6 OF THE
 SOCIAL SECURITY ADMINISTRATION’S
   SPECIAL DISABILITY WORLOAD

     May 2007     A-13-07-27123




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      May 18, 2007                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Phase 6 of the Social Security Administration’s Special Disability Workload
           (A-13-07-27123)


           OBJECTIVE

           Our objective was to assess the Social Security Administration’s (SSA) actions
           pertaining to Phase 6 claimant cases. The review was in response to an issue raised
           by an employee regarding the inclusion of certain claimant cases in the on-going
           Special Disability Workload (SDW) effort.

           BACKGROUND

           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) and
           Supplemental Security Income (SSI) programs under Titles II and XVI of the Social
           Security Act, respectively. The OASDI program provides benefits to qualified retired
           and disabled workers and their dependents as well as to survivors of insured workers. 1
           The SSI program provides payments to individuals who have limited income and
           resources and who are either age 65 or older, blind or disabled. 2, 3

           Section 1611(e)(2) of the Social Security Act 4 requires that SSI recipients who have
           been identified as likely to be eligible for OASDI benefits file for those benefits. When
           SSA identifies an SSI recipient who may be eligible for OASDI benefits, SSA notifies
           the individual of his or her likely eligibility and the requirement to file for OASDI benefits.




           1
               Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
            To be eligible for SSI payments, the individual must also (1) be a U.S. resident; (2) be a U.S. citizen or
           an eligible noncitizen; and (3) meet certain income and resource limits.
           3
               Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           4
               42 U.S.C. § 1382(e)(2).
Page 2 - The Commissioner


SSA has identified a group of SSI disability recipients who appear to be insured but are
not receiving Title II disability insurance benefits (DIB). In January 2006, we reported 5
that, as of November 2004, SSA had identified approximately 466,000 SSI recipients
who appeared to be insured for OASDI benefits based on their own earnings but were
not receiving such benefits. The Agency categorized these individuals as SDW cases.
SSA is reviewing the SDW cases in phases. Based on information reported on the
Agency’s “Special Title II Disability Workload” website, as of November 20, 2006, the
phases of SDW case review were as follows.

•     Individuals initially identified in July 1999 as SDW cases are classified as “Phase
      1-QCI [Quarters of Coverage Indicator code] Z.”

•     Individuals with processing limitations in the “normal insured status screening
      process” are classified as “Phase 2-QCI P.”

•     Individuals considered potentially insured for DIB are classified as “Phase 3-QCI D.”

•     Individuals receiving Title II auxiliary/survivor benefits and are considered potentially
      entitled to higher Title II benefit payments are classified as “Phase 4-QCI H.”

•     Individuals who received reduced Title II retirement insurance benefits but may be
      eligible for an “unreduced” DIB are classified as “Phase 5-QCI M.”

•     Individuals who once received SSI but whose SSI records are likely in a terminated
      status are classified as “Phase 6-QCI T” – (commonly referred to as
      Phase 6 cases).

SSI recipients classified as Phase 6 cases may be eligible for OASDI benefits.
However, an employee raised an issue regarding inclusion of certain cases in the
Phase 6 review. The employee stated that over 90 percent of the Phase 6 cases for
SDW were erroneous and could be removed from SDW by computer screening. Based
on the employee’s analysis of 9,385 Phase 6 cases “…91.6% -- were receiving DIB at
the time of death.” Further, it was stated, “This fact alone should have eliminated these
cases from selection for the SDW.” The employee indicated SDW cadres 6 are wasting
Agency resources by continuing to review the Phase 6 claimant cases.




5
    The Social Security Administration’s Identification of Special Disability Workload Cases (A-13-05-15028).
6
 SSA defines the term as a team of regional experts established to initiate and review entitlement in
cases.
Page 3 - The Commissioner


RESULTS OF REVIEW
We assessed SSA actions pertaining to Phase 6 of the SDW claimant cases. SSA
reported in its July 2004 policy memorandum 7 approximately 9,400 cases would be
“…posted to the SDW website and identified as Phase 6. . . . These are individuals who
have received SSI, but are now in a terminated status on the [Supplemental Security
Records] SSR. There is an indication that these individuals may be eligible for DIB or
[Retirement Insurance Benefit] RIB benefits. Some of these individuals may now be
deceased. The SSR is not yet marked with a QCI indicator.”

The Agency employee provided us an electronic data extract of information for our
review. We confirmed the data extract consisted of 9,385 claimant cases and was
obtained from SSA’s Special Title II Disability Workload website in October 2004. The
employee stated 8,592 (91.6 percent) of the cases in the data extract were incorrectly
included in Phase 6 of the SDW, and the remaining 793 cases were correctly included
in Phase 6 of SDW. Further, the employee described the 8,592 individuals as
deceased recipients who were receiving DIB at the time of death and therefore
incorrectly included in SDW. To determine whether the 8,592 claimant cases had these
characteristics, we randomly selected 50 claimant cases for review. See Appendix B
for more information.

For the 50 claimant cases, we examined information recorded as of December 2006 in
SSA’s Master Beneficiary (MBR) and Supplemental Security (SSR) Records. Our
review found all 50 MBRs had coding indicating these individuals were deceased and
were receiving Title II payments at the time of death. These individuals were receiving
either DIB or RIB 8 under Title II. Further, all SSRs had coding indicating (1) terminated
payment status and (2) being potentially OASDI insured. The records had the same
“QCI D” coding used for the SDW Phase 3 category of cases.

On January 10, 2007, we discussed the results of our analysis with staff from SSA’s
Office of Quality Performance. Although the total number of claimant cases had
changed since October 2004, Agency staff reported Phase 6 claimant cases still totaled
about 9,400. Staff explained the Office of Quality Performance learned in June 2004
most of the cases categorized as Phase 6 were deceased recipients who had received
either DIB or RIB. Agency staff stated these cases were incorrectly included in Phase 6
of the SDW.




7
 Administrative Message – 04096, Selection of New SDW Cases and Changes to the SDW Look-Alike
Criteria, July 9, 2004.
8
  These individuals received RIB because their DIB payments were automatically converted to RIB when
they reached retirement age of 62.
Page 4 - The Commissioner


In November 2003, instructions were provided to Regional Commissioners to process
SDW claimant cases “in Phase order.” Staff explained the cadres were supposed to be
reviewing Phase 1 SDW cases. However, as of January 2007, SSA staff stated there
were cadres reviewing Phase 6 cases. Staff acknowledged the cadres should not have
been reviewing most of these cases.

After our discussions with Agency staff, 8,567 claimant cases were removed from the
Phase 6 of the SDW category as identified on the Agency’s Special Title II Disability
Workload website. Of the 867 Phase 6 cases remaining on the website, the cadres
had reviewed 839. The other 28 cases were included in the Office of Quality
Performance’s study of terminated cases. Agency staff stated the criteria for SDW
Phase 6 case selection will be re-evaluated.

CONCLUSION AND RECOMMENDATIONS
Most of the claimant cases previously categorized as Phase 6 cases were incorrectly
included in Phase 6 of the SDW. However, SSA had taken action to significantly
reduce the number of cases it categorized as Phase 6 and had plans to re-evaluate
criteria it uses for SDW Phase 6 case selection. By reducing the number of claimant
cases, the Agency has taken action to prevent use of its limited resources on cases that
were incorrectly included in the Phase 6 of the SDW.

We recommend SSA take action to ensure existing polices and procedures are
followed when processing SDW cases.

AGENCY COMMENTS
SSA agreed with our recommendation. The text of SSA’s comments is included in
Appendix C.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
DIB      Disability Insurance Benefits
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
POMS     Program Operations Manual System
QCI      Quarters of Coverage Indicator
RIB      Retirement Insurance Benefits
SDW      Special Disability Workload
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal law and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to the Old-Age, Survivors and Disability Insurance and
    Supplemental Security Income programs.
•   Interviewed Agency staff from the Office of Quality Performance.
•   Reviewed prior Office of the Inspector General reports.

We obtained an electronic data extract of 9,385 Special Disability Workload (SDW)
Phase 6 claimant cases dated October 2004. During our review, we confirmed the data
extract consisted of 9,385 claimant cases and was obtained from SSA’s Special Title II
Disability Workload website in October 2004. The employee stated 91.6 percent of the
cases (8,592 cases) in the data extract were incorrectly included in the Phase 6 SDW,
and the remaining 793 cases were correctly included in Phase 6 SDW. Further, the
employee described the 8,592 individuals as deceased recipients who were receiving
disability insurance benefits at the time of death and therefore incorrectly included in
SDW. To determine whether the 8,592 claimant cases had these characteristics, we
randomly selected 50 claimant cases for review. We obtained the Master Beneficiary
and Supplemental Security Records and reviewed recipients’ date of

•   death,
•   initial entitlement,
•   current entitlement,
•   suspension or termination,
•   receipt of full retirement benefits,
•   entitlement to disability insurance benefits, and
•   disability onset.

We conducted our review from November 2006 through January 2007 in
Baltimore, Maryland. We determined the data used in this report were sufficiently
reliable given our review objectives and the intended use of the data. The electronic
data used in our review were primarily extracted from the Agency’s Special Title II
Disability Workload website. We assessed the reliability of the electronic data by
reviewing all the data elements needed to meet our objective. We also traced
information from the data extract to the Master Beneficiary and Supplemental Security
Records. The entity reviewed was the Office of Quality Performance. We conducted
our review in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.
                  Appendix C

Agency Comments
                                SOCIAL SECURITY

MEMORANDUM


Date:      May 2, 2007                                                Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Phase 6 of the Social Security
           Administration's Special Disability Workload" (A-13-07-27123)—INFORMATION


We appreciate OIG’s efforts in conducting this review. Our comment on the draft report
content and recommendation is attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at 410 965-4636.

Attachment:
SSA Response




                                              C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG DRAFT
REPORT),"PHASE 6 OF THE SOCIAL SECURITY ADMINISTRATION'S SPECIAL
DISABILITY WORKLOAD" (A-13-07-27123)


Thank you for the opportunity to review and comment on the draft report. We appreciate the
report’s acknowledgement that the Social Security Administration took action to remove
erroneous cases from the Special Disability Workload (SDW) website. The removal of the
erroneous cases will prevent the use of our limited resources on cases that should not have been
included in the phase 6 SDW pool.

Recommendation 1

The Social Security Administration should take action to ensure existing polices and procedures
are followed when processing SDW cases.

Response

We agree. On April 19, 2007 a telephone conference with the SDW Regional Coordinators was
held. During that call, staff members were reminded to ensure existing policies and procedures
are followed when processing SDW cases.




                                               C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Lance Chilcoat, Audit Manager, General Management (410) 965-9743

Acknowledgments

In addition to those named above:

   Tracey Edwards, Senior Auditor

   Melinda Lockhart, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-07-27123.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
